                                  U.S. Department of Education 

                                             Office of Inspector General 


                                          501 I Street, Suite 9-200 

                                       Sacramento, California 95814 

                                 Phone (916) 930-2388 • Fax (916) 930-2390




                                                   November 19, 2003


                                                                                                        ED-OIG/A09-C0025


Richard Mills
Commissioner
New York State Education Department
88 Washington Avenue
Albany, New York 12234

Dear Commissioner Mills:

This Final Audit Report, entitled Charter Schools Access to IDEA, Part B Funds in the State of
New York, presents the results of our audit of the New York State Education Department
(NYSED) and three local educational agencies (LEAs) within the State. The purpose of the audit
was to determine whether NYSED and the LEAs (1) provided new or expanding charter schools
with timely and meaningful information about the Individuals with Disabilities Education Act
(IDEA), Part B funding for which these schools might have been eligible, and (2) had
management controls that ensured charter schools, including new or expanding schools, were
allocated the proportionate amount of IDEA, Part B funds for which these schools were eligible.1
Our review covered school years 2000-2001 and 2001-2002.

We provided NYSED with a draft of this report. NYSED concurred with the finding and
generally agreed with the recommendations in this final report. NYSED’s comments are
summarized in the body of the report and included in their entirety as an attachment.


                                                  BACKGROUND
The IDEA, Part B § 611 provides grants to states for special education and related services for
children with disabilities. Section 5206 of the Elementary and Secondary Education Act of 1965
(ESEA), as amended by the No Child Left Behind Act of 2001 (NCLB), requires the Department
and states to take measures to ensure every charter school receives the Federal funds, including



1
 For purposes of this report, an “expanding” charter school is one that has significantly expanded
enrollment.
           Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
ED-OIG/A09-C0025                                                                             Page 2 of 17


IDEA, Part B funds, for which it is eligible no later than five months after the school first opens
or expands enrollment.2

The New York State Legislature enacted the State charter school law in 1998, and the State’s
first five charter schools opened in September 1999. In school year 2001-2002, a total of
32 charter schools were operating within the boundaries of 10 LEAs. Most charter schools were
located in the State’s three largest LEAs—New York City Department of Education [New York
City School District (SD)], Buffalo City School District (Buffalo City SD), and Rochester City
School District (Rochester City SD).


                                     Number of Public Schools
                                  School Year 2000-2001       School Year 2001-2002
                 LEA
                                 Total     Charter Schools       Total     Charter Schools
          New York City SD       1,208             12            1,220            17
          Buffalo City SD          80              2              82               4
          Rochester City SD        56              3              57               4

For school year 2001-2002, NYSED allocated $167 million in IDEA, Part B funds to 709 LEAs,
based on December 1, 1998, special education counts of students ages 3-21 and adjustments for
each LEA’s total student population and poverty. LEAs were to report student counts that
included students attending charter schools located within the LEA boundaries. NYSED also
required charter schools to submit a report (PD-1C/4C) providing counts of students with
disabilities receiving services in the charter schools on December 1, 2001,3 and identifying the
LEA in which each student resided (resident LEA). NYSED instructed the charter schools to
provide a copy of the PD-1C/4C to each resident LEA.

For purposes of the IDEA, NYSED has concluded that a charter school in the State of New York
is deemed a school of the LEA in which an enrolled student resides (resident LEA). Under State
charter school law, a charter school can have enrolled students from multiple resident LEAs.
Each resident LEA is responsible for developing the individualized education programs (IEPs)
for students with disabilities who reside within the LEA’s boundaries and require special
education services, including those students attending charter schools. Special education
programs and services are to be provided to special education students enrolled in charter schools
in accordance with the IEP. The charter school may arrange to have such services provided by
the resident LEA, or by the charter school directly or by contract with another provider. If not
providing the special education services itself, the resident LEA is required to pay the Federal
and State aid attributable to a student with a disability to the charter school in proportion to the
level of services directly or indirectly provided by the charter school. [New York Education Law
§ § 2454(2)(b), 2853(4)(a), and 2856(1)]



2
    This provision was originally enacted by the Charter School Expansion Act of 1998.
3
 The New York State Regulations of the Commissioner of Education, § 119.1 requires that counts of
children with disabilities be taken as of December 1 of each year. Since December 1, 2001, fell on a
Saturday, NYSED modified the date to December 3, 2001.
ED-OIG/A09-C0025                                                                        Page 3 of 17


New York State regulations describe the formula resident LEAs are to use to calculate IDEA,
Part B allocations for charter schools where students with disabilities are enrolled. The four-part
formula consists of the charter school’s December 1 count, the LEA-determined per pupil dollar
amount, the portion of the school year for which each student is enrolled at the charter school,
and the portion of services delivered by the charter school for each student.


                                      AUDIT RESULTS
In the four years that charter schools have existed in New York, NYSED has implemented
policies and procedures consistent with regulations and non-regulatory guidance implementing
§ 5206 of the ESEA and applicable to charter schools and their access to IDEA, Part B program
information and funds. However, NYSED needs to take additional steps to ensure LEAs comply
with applicable Federal laws and regulations. Specifically, NYSED needs to ensure that LEAs
provide charter schools with meaningful information about accessing IDEA, Part B funds,
allocate a proportionate amount of IDEA, Part B funds to all eligible charter schools, and provide
the IDEA, Part B funds to new or expanding charter schools within five months of their opening
or expansion dates.

The OTHER MATTERS section of the report provides information on the various special
education funding and service-delivery arrangements for the charter schools located in the three
LEAs we reviewed. We concluded that these arrangements were consistent with State charter
school law, but the arrangements may not be consistent with the IDEA requirement to provide
services and funding for children with disabilities in the same manner as other public schools.


FINDING – NYSED Needs to Take Additional Steps to Ensure that Charter Schools
          Receive Proportionate and Timely Access to IDEA, Part B Funds

Our review of three LEAs found instances where the LEAs did not comply with the Federal laws
and regulations implementing § 5206 of the ESEA. Two of the LEAs did not provide sufficient
information to charter schools on accessing IDEA, Part B funds. Two LEAs each did not
allocate a proportionate amount of IDEA, Part B funds to a charter school. All three LEAs did
not have adequate procedures to ensure IDEA, Part B funds were allocated to new or expanding
charter schools within five months of their opening or expansion dates. While NYSED has
provided guidance to LEAs, NYSED needs to enhance its monitoring of LEA compliance with
the guidance and Federal laws and regulations applicable to providing charter schools access to
IDEA, Part B funds.

New York City SD and Buffalo City SD Did
Not Provide Sufficient Information to Charter
Schools on Accessing IDEA, Part B Funds

The regulation at 34 C.F.R. § 76.789(a) requires that new or expanding charter schools be
provided with timely and meaningful information about the IDEA, Part B program.
Departmental guidance issued in December 2000 (Question and Answer No. 16), defines
meaningful information, in part, as the “information the charter school reasonably needs to know
to make an informed decision about whether to apply to participate in a particular covered
program and the steps the charter school needs to take to do so.”
ED-OIG/A09-C0025                                                                                    Page 4 of 17


Two of the LEAs we reviewed had procedures for allocating IDEA, Part B funds to charter
schools, but the LEAs did not provide sufficient information to charter schools on how the
schools could obtain access to the funds. As a result, charter schools submitted incomplete data
or no data at all, and may not have received all the IDEA, Part B funds for which the schools
were eligible.

New York City SD. To determine IDEA, Part B allocations for charter schools, the District used
information provided by charter schools on a district-developed form (called the Billing
Document for Charter Schools) for the applicable December 1st period. The billing document,
which was designed to provide information for State-funded special education services,
contained spaces for schools to provide individual student information, including level of
service.

The District did not inform the charter schools, which were nearly all new or expanding schools,
that the December 1 billing document would be used to determine IDEA, Part B fund
allocations. Also, charter schools may not have reported complete student counts on the billing
form due to the form instructions. From our conversations with representatives from two charter
schools, we learned that the schools did not list all students with disabilities receiving special
education services on the billing document because the form instructions for level of service
states that “[n]o provision is made for pupils who receive special education services less than
20% of the school day.” Schools were not eligible to receive State funds for students who
received services less than 20 percent of the school day. There is no such restriction for IDEA,
Part B funds under the State’s formula for allocating these funds to charter schools that provide
special education services. Of the 12 charter schools that submitted the billing forms used by the
District for school year 2000-2001 to determine IDEA, Part B allocations, we found that
8 charter schools did not report any students with service levels below 20 percent. For school
year 2001-2002, we found that 7 of the 17 charter schools that submitted billing forms did not
report any such students.

As part of its preparation for IDEA, Part B allocations for school year 2002-2003, the District
issued a memorandum, dated November 25, 2002, informing charter schools that the December 1
billing document would be used to determine the allocations. While this action provided
meaningful information to existing charter schools, the District should ensure that future new
charter schools also receive this information. In addition, in order to comply with State
regulations, the District should revise the form instructions to explicitly state that, for IDEA,
Part B purposes, all students must be listed on the form regardless of the level of service.

Buffalo City SD. The District’s Special Education Supervisor informed us that the District
provides physical therapy, occupational therapy, and speech services for students enrolled in
charter schools, but that the charter schools are responsible for providing other special education
services.4 Although charter schools can request a proportionate amount of IDEA, Part B funds
from the District for school-provided services, the District did not provide information to new or
expanding charter schools about the procedures for requesting these funds.

During our interviews with representatives from the four charter schools located in the District,
which were all new or expanding schools, we were told by two charter schools that they did not
know how to obtain the IDEA, Part B funds from the District. Thus, the charter schools did not

4
    The District provided all special education services for students enrolled in traditional public schools.
ED-OIG/A09-C0025                                                                       Page 5 of 17


request funds and, as a result, were not allocated IDEA, Part B funds for school-provided
services. From the PD-1C forms that the charter schools submitted to NYSED, we found that
one charter school provided special education services to 11 students in school year 2000-2001.
For school year 2001-2002, three charter schools provided services to a total of 29 students.

Buffalo City SD should have been aware that the charter schools were providing services since,
under State law, the District was responsible for developing the IEPs for students enrolled at the
charter schools. The District needs to provide the charter schools with instructions and forms for
requesting IDEA, Part B funds for school-provided special education services.

Buffalo City SD and Rochester City SD Each Did
Not Allocate Proportionate Amount of IDEA, Part B
Funds to a Charter School in School Year 2001-2002

The ESEA § 5206 implementing regulations at 34 C.F.R. § § 76.792(a) and 76.799(a) require
LEAs to ensure eligible new or expanding charter schools receive a proportionate amount of
Federal funds. The regulations state—

       For each eligible charter school LEA that opens or significantly expands its
       enrollment on or before November 1 of an academic year, the [State educational
       agency (SEA)] must implement procedures that ensure that the charter school
       LEA receives the proportionate amount of funds for which the charter school
       LEA is eligible under each covered program.
       34 C.F.R. § 76.792(a)

       Each LEA that is responsible for funding a charter school under a covered
       program must comply with the requirements in this subpart on the same basis as
       SEAs are required to comply with the requirements of this subpart.
       34 C.F.R. § 76.799(a)

Two LEAs we reviewed made errors in computing IDEA, Part B allocations, which resulted in
two charter schools receiving less than the proportionate amount of funding for which they were
eligible for school year 2001-2002.

Buffalo City SD. The Buffalo City SD incorrectly calculated the IDEA, Part B allocation for the
Charter School for Applied Technologies, which was a new school in school year 2001-2002.
None of the charter schools located within the District requested IDEA, Part B funds for the two
school years covered by our review. However, the Charter School for Applied Technologies,
which was located outside the District’s boundaries and had enrolled students who resided within
the District’s boundaries, requested funds from the District for school year 2001-2002. Using the
State’s formula for LEA allocations to charter schools, we determined that the charter school
should have received $11,703 more than the amount allocated. We were unable to identify the
specific calculation error because the District could not provide documentation of the allocation
calculation, even though 34 C.F.R. § 80.42(b) requires that programmatic documentation be
retained for three years. Also, the District’s Special Education Supervisor could not reconstruct
the calculation.
ED-OIG/A09-C0025                                                                            Page 6 of 17


Rochester City SD. The Rochester City SD did not properly calculate the IDEA, Part B
allocation for Eugenio Maria de Hostos Charter School. The District calculated the allocation
using student counts submitted for school year 2000-2001, even though the school had
significantly increased its enrollment by a third when a grade was added in school year
2001-2002. Federal regulations at 34 C.F.R. § 76.796 require adjustments to a new or expanding
charter school’s allocation based on actual student counts for the current year.

Rochester City SD was advised of this requirement in instructions provided by NYSED for
school year 2001-2002. Under the District’s procedures, charter schools were to have submitted
a December 1, 2000, student count in February 2001 for the District to calculate the schools’
IDEA, Part B allocations for both school years 2000-2001 and 2001-2002. Thus, the District’s
procedures did not address the requirement to use current-year student counts when a charter
school significantly expands enrollment. Based on the charter school’s December 1, 2001,
student count, we determined that Eugenio Maria de Hostos Charter School would have received
$805, or 20 percent, more than the amount of IDEA, Part B funds allocated if the District had
considered the increase in enrollment.

Neither the Buffalo City SD nor the Rochester City SD had written procedures requiring reviews
of allocation calculations. LEAs need to have procedures for ensuring the accuracy of allocation
calculations and to retain supporting documentation for the required period.

All Three LEAs Did Not Have Adequate Procedures to
Ensure IDEA, Part B Funds Were Allocated to New or
Expanding Charter Schools Within Five Months

Federal regulation at 34 C.F.R. § 76.793(a) requires the LEA to ensure that eligible new or
expanding charter schools have access to allocated Federal funds within five months of their
opening or expansion. The regulation states—

       For each eligible charter school . . . that opens or significantly expands its
       enrollment on or before November 1 of an academic year, the . . . [LEA] must
       allocate funds to the charter school . . . within five months of the date the charter
       school . . . opens or significantly expands its enrollment . . .

To trigger the five-month requirement, a charter school must have provided written notification
of its opening or expansion date, otherwise the LEA is not required to provide access to the
allocated funds within five months. The regulations at 34 C.F.R. § § 76.788(a) and 76.789(b)(3)
state—

       At least 120 days before the date a [charter school] is scheduled to open or
       significantly expand its enrollment, the [charter school] or its authorized public
       chartering agency must provide its [LEA] with written notification of that date.
       34 C.F.R. § 76.788(a)

       The failure of an eligible [charter school] or its authorized public chartering
       agency to provide notice to its [LEA] in accordance with § 76.788(a) relieves the
       [LEA] of any obligation to allocate funds to the charter school within five months.
       34 C.F.R. § 76.789(b)(3)
ED-OIG/A09-C0025                                                                        Page 7 of 17


For the charter schools covered by our review, the five-month timeframe specified in the
regulations would begin with the start of the school year in September and end in February.

Of the three LEAs we reviewed, only the New York City SD relied on alternative reporting
mechanisms to identify new or expanding charter schools and did not require charter schools to
provide written notice. Despite having identified the applicable charter schools, this District did
not allocate IDEA, Part B funds to new or expanding charter schools within five months of their
opening or expansion dates for school years 2000-2001 and 2001-2002. For the earlier school
year, nine new or expanding charter schools received their IDEA, Part B funds in May 2001. For
school year 2001-2002, ten new or expanding charter schools received their funds in April 2002.

Had the Rochester City SD received written notice, the District would have been late in
allocating IDEA, Part B funds to new or expanding charter schools for school year 2000-2001,
but would have met the five-month requirement the following year. For school year 2001-2002,
the Buffalo City SD would have been late in allocating those funds to the one new charter school
located outside the District’s boundaries, had there been evidence of written notice 120 days
prior to the school’s opening.

For the two school years covered by our review, none of the three LEAs had written procedures
specifying the timeframe for allocating IDEA, Part B funds to new or expanding charter schools.
Also, the LEAs’ special education program staff, who were responsible for allocating IDEA, Part
B funds to charter schools, told us that they were not aware of the five-month requirement.

Between school years 2000-2001 and 2001-2002, the New York City SD and Rochester City SD
took steps that improved the timeframes in which charter schools received IDEA, Part B funds.
Additionally, according to New York City SD’s Assistant Director for the Office of Charter
Schools, charter schools received their IDEA, Part B funds on time for school year 2002-2003.

NYSED Incrementally Provided Guidance for LEA
Allocations, But Did Not Monitor for Compliance

The State is responsible for ensuring LEAs comply with the ESEA § 5206 requirements. In the
preamble to the 1999 final implementing regulations, the Secretary responded to a comment on
the need for expanding regulations to address LEA-specific circumstances, stating—

       States are directly responsible for ensuring that LEAs meet the requirements of
       section [5206] of the Act and these final regulations. Accordingly, the
       Department expects that some SEAs may also provide guidance to LEAs on these
       matters.
       64 FR 71972

NYSED’s actions for ensuring that LEAs provide eligible charter schools with access to IDEA,
Part B funds in accordance with applicable laws and regulations have been limited to providing
guidance to LEAs addressing the allocation of IDEA, Part B funds to charter schools. The
guidance has evolved since charter schools opened in the State in school year 1999-2000.

      Beginning with school year 2000-2001, NYSED had LEAs sign an assurance that IDEA,
       Part B funds would be allocated to charter schools consistent with State and Federal laws
       and regulations.
ED-OIG/A09-C0025                                                                            Page 8 of 17


       In school year 2001-2002, NYSED provided LEAs guidance on the formula to use to
        allocate IDEA, Part B funds to charter schools, and specified the requirement for LEAs to
        establish administrative and accounting procedures for receiving student counts from
        charter schools and allocating a proportionate amount of IDEA, Part B funds to those
        schools. NYSED also instructed charter schools to send their completed PD-1C forms to
        LEAs to assist in LEA allocation of IDEA, Part B funds to charter schools.

       In school year 2002-2003, NYSED included guidance in its annual instructions to LEAs
        on the five-month requirement for allocating IDEA, Part B funds to new or expanding
        charter schools.

Aside from providing statewide guidance, NYSED has not monitored the LEAs to ensure they
have implemented State policies and procedures, such as establishing procedures for receiving
student counts and allocating IDEA, Part B funds to charter schools, or complied with applicable
State and Federal laws and regulations.

Both NYSED’s Special Education Budget and Finance Coordinator and its Data Manager told us
that, given NYSED’s available resources, the policies and procedures outlined above constituted
reasonable steps for ensuring that charter schools, including new or expanding charter schools,
received the IDEA, Part B funds for which they were eligible. They stated that the charter
school bears the responsibility of providing the LEA with a copy of the PD-1C/4C form before
the LEA can be held responsible for allocating IDEA, Part B funds to the charter school. The
Special Education Budget and Finance Coordinator informed us that no charter school had
formally submitted an appeal for IDEA, Part B funds for the two school years covered by our
review.5

We found that the PD-1C or PD-1C/4 C form contains only aggregate student counts and does
not identify individual students or the LEA- and charter school-provided special education
services. The LEAs we reviewed still needed to provide information to charter schools,
including new or expanding schools, about additional data submission requirements. Moreover,
some LEAs may not receive or use charter schools’ PD-1C forms, yet have IDEA, Part B
allocation processes that use other charter school-reported information, as we found in the New
York City SD and Rochester City SD.

During interviews with representatives from 31 charter schools,6 some charter school officials
told us that their schools did not receive an IDEA, Part B allocation until NYSED was asked to
informally intervene with the applicable LEA. In addition, absent sufficiently meaningful
information about LEA allocation processes, charter school officials told us they did not know
whether the schools’ allocation amounts were correct. Our interviews with some charter school
officials also disclosed that the schools’ relationships with LEAs were often tenuous as some
LEAs would not provide information about how to access IDEA, Part B funds or made it
difficult for the charter school to obtain district-provided services for students with disabilities.
Other charter schools reported positive or improved relationships with LEAs.

5
 Under State law, charter schools can appeal to NYSED when an LEA does not provide State or Federal
funds due to the charter school. In the event of a successful appeal, NYSED can deduct from the LEA the
amount of funds due to the applicable charter school.
6
 Of the 31 charter schools, we determined that 27 of them were either new or expanding in school year
2001-2002.
ED-OIG/A09-C0025	                                                                        Page 9 of 17


Based on our findings and interviews with charter school officials, NYSED needs to take steps to
ensure that LEAs have procedures that clearly define the roles and responsibilities of the LEA
and new or expanding charter schools, data submission requirements, and the LEA’s IDEA, Part
B allocation process. The need for clearly defined procedures is critical because LEAs are likely
exercising the flexibility that NYSED policies and procedures allow and using funding and
service-delivery arrangements that differ from other public schools and other LEAs, as we found
in the three LEAs we reviewed. Without such procedures, charter schools, including new or
expanding schools, may be at risk of not receiving the IDEA, Part B funds for which they are
eligible.

Recommendations

The Assistant Secretary for Special Education and Rehabilitative Services should require
NYSED to—

1.1 	   Ensure LEAs provide meaningful information to charter schools, including new or
        expanding charter schools, about the LEA procedures for allocating IDEA, Part B funds
        and data submission requirements. In addition, the LEAs should take steps to ensure
        charter schools understand their responsibilities and the steps they need to take to access
        these funds.

1.2 	   Ensure LEAs have written procedures for receiving complete student counts from charter
        schools, including new or expanding schools, and allocating a proportionate amount of
        IDEA, Part B funds to those schools. These procedures should include detection of
        allocation errors, retention of documentation supporting the IDEA, Part B allocation
        amounts, and the use of current-year student counts for calculating IDEA, Part B
        allocations for expanding charter schools.

1.3 	   Ensure that the Charter School of Applied Technologies and the Eugenio Maria de
        Hostos Charter School receive the additional $11,703 and $805 in IDEA, Part B funds,
        respectively, for which these schools were eligible.

1.4 	   Ensure LEAs modify their procedures, as needed, to make certain eligible new or
        expanding charter schools are allocated IDEA, Part B funds within five months of their
        opening or expansion dates, provided that the charter schools have met requirements for
        written notice at least 120 days prior to their opening or expansion.

1.5 	   Include in its technical assistance and monitoring reviews LEAs’ adherence to written
        procedures related to allocating IDEA, Part B funds to charter schools consistent with the
        ESEA § 5206 requirements.

NYSED Comments

NYSED concurred with the finding and generally agreed with the recommendations. NYSED
stated that it has taken steps to help ensure LEAs meet their responsibilities towards charter
schools. These steps include providing technical information to charter schools on the NYSED
website and in correspondence. Additionally, NYSED intends to send each charter school and
school district guidance on its responsibilities in regard to IDEA funds in school year 2003-2004.
As part of its monitoring of charter schools, NYSED will ensure that the LEAs have provided
ED-OIG/A09-C0025                                                                               Page 10 of 17


charter schools with meaningful information about LEA procedures for allocating IDEA, Part B
funds and data submission requirements. NYSED will also determine whether the charter
schools understand their responsibilities and the steps they need to take to access these funds.
Through audits, technical assistance, and monitoring visits to LEAs, NYSED will review LEAs’
adherence to requirements for allocating IDEA, Part B funds to charter schools.


                                        OTHER MATTERS
As described in the BACKGROUND section of the report, the State of New York’s charter
school law allows a charter school to provide some or all special education services specified in
the student’s IEP. The arrangements may not be consistent with the IDEA, Part B regulations at
34 CFR § § 300.312(c) and 300.241, which state that, if a charter school is considered a school
of an LEA, the LEA must (1) serve children with disabilities attending charter schools in the
same manner as it serves children with disabilities in its other schools, and (2) provide funds
under IDEA, Part B to its charter schools in the same manner as it provides Part B funds to its
other schools.7

The three LEAs we reviewed provided all special education services for children enrolled in
non-charter public schools. For charter schools, the IDEA, Part B funds allocated and delivery
of special education services varied.

           IDEA, Part B Funding and Special Education Service-Delivery Arrangements
                       for Charter Schools Located Within District Boundaries
                                                           Number of Charter Schools in
                                                               School Year 2001-2002
                                                   New York City     Buffalo City Rochester City
                                                        SD               SD             SD
Charter school received IDEA, Part B funds from
                                                        14                -              3
LEA to provide services
Service-Delivery Arrangement
Charter school provided all services                          10                 -                 4
LEA provided all services                                     3                  -                  -
Both charter school and LEA provided services                 3                  3                  -
Unknown or no students with disabilities                      1                  1                  -
Total Charter Schools Located in LEA                          17                 4                 4

In correspondence to the Department dated September 2, 2003, NYSED stated its understanding
is that the 34 C.F.R. § 300.241 requirement to treat charter schools the same as other public
schools was intended to ensure that charter school students receive the same level of special
education services and the same share of IDEA funds as other schools in the LEA. NYSED also
stated that requiring the LEA’s IEP team to determine the appropriate special education services
to be provided to students enrolled in charter schools and non-charter schools ensures that LEAs

7
  We note that these regulations present a potential conflict with § 1111(b)(2)(K) of the NCLB, which
states that accountability provisions shall be overseen for charter schools in accordance with State charter
school law. The Improving America’s Schools Act of 1994, which was in effect during our audit period,
did not contain a similar provision.
ED-OIG/A09-C0025                                                                               Page 11 of 17


serve the charter school students in the same manner as the other public school students.
Additionally, if a charter school elects to have the LEA provide all special education services to
enrolled students, the LEA retains and applies the IDEA, Part B funds to support the cost of
services for charter school students, just as it does for other public school students. NYSED
stated that, if a charter school chooses to provide some or all of the services mandated by the IEP
team, the LEA is required to provide the charter school with IDEA funds in proportion to the
level of services provided to the student by the charter school. NYSED asserted that this
approach is consistent with the intent of 34 C.F.R. § 300.241.

Our audit addressed the allocation of IDEA, Part B funds only. We concluded that the special
education arrangements at the charter schools located in the three LEAs we reviewed were
consistent with State charter school law. We did not evaluate whether NYSED was correct in its
interpretation of, or in compliance with, 34 C.F.R. § 300.241.


                     OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives were to determine whether NYSED and selected LEAs within the State of
New York (1) provided new or expanding charter schools with timely and meaningful
information about the ESEA Title I program and IDEA, Part B funding for which these schools
might have been eligible and (2) had management controls that ensure charter schools, including
new or expanding schools, were allocated the proportionate amount of Title I and IDEA, Part B
funds for which these schools were eligible. 8 This report presents the results of our review
covering the IDEA, Part B funds. The results of our review covering Title I funds are presented
in a separate report issued under Control Number ED-OIG/A09D0014. Our review covered
IDEA, Part B allocations for school years 2000-2001 and 2001-2002.

To address these objectives, we interviewed State officials and staff responsible for
implementing the IDEA, Part B and charter schools programs in New York. We evaluated the
information that the State provided to charter schools about accessing IDEA, Part B funds to
determine whether the information was timely and meaningful. In addition, we assessed
NYSED’s procedures to determine whether management controls ensured that charter schools
received the proportionate amount of IDEA, Part B funds for which these schools were eligible.
We also interviewed administrators at 31 charter schools about their experiences in accessing
IDEA, Part B funds, including the timeliness and meaningfulness of provided information.9

To evaluate LEA procedures, we selected the three LEAs that had more than one charter school
located within their boundaries. These LEAs were the New York City Department of Education,
Buffalo City School District, and Rochester City School District. At each LEA, we reviewed
procedures and interviewed staff responsible for providing information and allocating IDEA,
Part B funds to charter schools. We reviewed the information the LEAs provided to charter
schools to assess the information’s timeliness and meaningfulness. To determine the accuracy
and timeliness of charter school allocations, we reviewed the LEA’s IDEA, Part B allocation


8
 The Education of Disadvantaged Children formula grant program is authorized under the ESEA, Title I,
Part A.
9
    One of the 32 schools operating in school year 2001-2002 was no longer open at the time of our audit.
ED-OIG/A09-C0025                                                                        Page 12 of 17


process and decisions. Since our review was limited to the three LEAs, we did not project our
findings to the universe of LEAs across the State.

We performed our fieldwork at NYSED and LEA offices in Albany, New York City, Buffalo,
and Rochester, New York, from September 2002, to January 2003. We held an exit briefing with
NYSED officials on March 3, 2003. Our audit was performed in accordance with generally
accepted government auditing standards appropriate to the scope of the review described.


                 STATEMENT ON MANAGEMENT CONTROLS
We assessed the system of management controls, policies, procedures, and practices applicable
to NYSED’s and the three selected LEAs’ processes for allocating IDEA, Part B funds to charter
schools. We performed our assessment to determine whether the processes used by NYSED and
the three LEAs provided a reasonable level of assurance that charter schools received needed
information and were allocated the proportionate amount of IDEA, Part B funds for which these
charter schools were eligible.

For the purpose of this report, we assessed and classified significant controls into the following
categories—

      Dissemination of information
      Allocation of IDEA, Part B funds

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, we identified NYSED and LEA management control weaknesses that adversely
affected charter schools’ receipt of IDEA, Part B funds. NYSED weaknesses included the lack
of monitoring to ensure LEAs complied with applicable State and Federal laws, regulations,
policies, and procedures. LEA weaknesses included the lack of written procedures and guidance
to charter schools on data submission requirements and LEA allocation processes at two LEAs,
lack of documentation to support an allocation determination at one LEA, allocation of a
disproportionate amount of IDEA, Part B funds by two LEAs, and untimely access to IDEA,
Part B funds.


                            ADMINISTRATIVE MATTERS
Statements that managerial practices need improvement, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Departmental official,
who will consider them before taking final action on this audit—
ED-OIGIA09-C0025                                                                      Page 13 of17


                              Robert H. Pasternack
                              Assistant Secretary
                              Office of Special Education and Rehabilitative Services
                              U.S. Department of Education
                              Mary E. Switzer Building
                              330 C Street, SW
                              Washington, DC 20202

It is the policy ofthe U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.c. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions under the Act.

                                             Sincerely,


                                            ~~
                                             Gloria Pilotti
                                             Regional Inspector General for Audit


Attachment

Electronic cc: Jonathan Gyurko, New York City Department of Education
               Marion Canedo, Buffalo City School District
               Manual J. Rivera, Rochester City School District
ED-OIG/A09-C0025                                         Page 14 of 17





                              ATTACHMENT


                   NYSED COMMENTS ON THE DRAFT REPORT

                          THE STATE EDUCATION DEPARTMENT I THE UNIVERSITY OF THE STATE OF NEW YORK I ALBANY, NY 12234

                          CHIEF OPERATING OFFICER
                          Tel. (518) 474·2547
                          Fax (518) 473·2827
                          E·mail: rcate@mail.nysed.gov

                                                                August 5, 2003



      Ms. Gloria Pilotti
      Regional Inspector General for Audit
      U.S. Department of Education
      Office of the Inspector General.
      501 I Street, Suite 9-200
      Sacramento, CA 95814

      Control number: ED-01G/A09-C0025

      Dear Ms. Pilotti:

              I am responding to your letter of July 7, 2003 regarding the draft audit report entitled Charter
      Schools Access to IDEA, Part B Funds in the State ofNew York. Our colllIhents on the fmdings and
      the recommendations are listed below.

      Finding - NYSED Needs to Take Additional Steps to Ensure that Charter Schools Receive
      Proportionate and Timely Access to IDEA, Part B Funds.

      Finding, Subpart 1
            NYSED is Responsible for Ensuring that LEAs Comply with the IDEA and ESEA.

      Finding, Subpart 2
            LEA Administration of IDEA, Part B Funds Must Be Consistent with State Policies and
      Procedures for IDEA, Part B Funds and Comply with the ESEA.

      Finding, Subpart 3
            New York City SD and Buffalo City SD Did Not Provide Sufficient Information to Charter
      Schools on Accessing IDEA, Part B Funds.

       Finding, Subpart 4
             Buffalo City SD and Rochester City SD Each Did Not Allocate Proportionate Amount of
       IDEA, Part B Funds to a Charter School in School Year 2001-2002.

       Finding, Subpart 5
              All Three LEAs Did Not Always Provide IDEA, Part B Funds to New or Expanding Charter
       Schools Within Five Months .




.   '. 

                                                                                           iW:m:a:mlZijU
                                                '"t •   -'1
                                                                                                   .,ljWiio.j••.
                                                   '




     Finding, Subpart 6
           NYSED Incrementally Provided Guidance for LEA Allocations, But Did Not Monitor for
     Compliance.

     We agree with the overall finding and its sUbparts.

     Recommendation 1.1
             Ensure LEAs provide meaningful information to charter schools, including new or expanding
     charter schools, about the LEA procedures for allocating IDEA, Part B funds and data submission
     requirements. In addition, the LEAs should take steps to ensure charter schools understand their
     responsibilities and the steps they need to take to access these funds.

     We agree in part with the recommendation.
            The Department has taken and will continue to take steps to help ensure that LEAs meet their
     responsibilities towards charter schools. For example, the Department provides technical
     information to the charter schools on the Department's website and in correspondence. The
     Department will also send each charter school and school district a guidance letter relating to their
     responsibilities in regard to IDEA funds in the 2003-04 school year.

             The Department conducts monitoring visits of all charter schools in their third year of
     operation. As part of this monitoring process, we will ensure that the charter schools have been
     provided meaningful information from the LEAs about the LEA procedures for allocating IDEA,
     Part B funds and data submission requirements. In addition, we will determine whether the charter
     schools understand their responsibilities and the steps they need to take to access these funds.

             The Department also conducts audits, technical assistance and monitoring visits to LEAs. As
     part of this process, we will review the LEAs' adherence to requirements for allocating IDEA, Part B
     funds to charter schools.

     Recommendation 1.2
            Ensure LEAs have written procedures for receiving complete student counts from charter
     schools and allocating a proportionate amount of IDEA, Part B funds to those schools. These
     procedures should include detection of allocation errors, retention of documentation supporting the
     IDEA, Part B allocation amounts, and the use of current-year student counts for calculating IDEA,
     Part B allocations for charter schools that have significantly expanded enrollment.

     We agree in part with the recommendation.
           See response to Recommendation 1.1.

     Recommendation 1.3
            Ensure that the Charter School for Applied Technologies and the Eugenio Maria de Hostos
     Charter School receive the additional $11,703 and $805 in IDEA, Part B funds, respectively, for
     which these schools were eligible .




.   '. 

      We agree with the recommendation.
               The Department will ensure that the LEAs make the appropriate payments to the charter
      schools.
      Recommendation 1.4
               Ensure LEAs modify their procedures, as needed, to make certain eligible new or expanding
      chcrrter schools are allocated IDEA, Part B funds within five months of their opening or expansion.

      We agree in part with the recommendation.
            See response to Recommendation 1.1.

      Recommendation 1.5
             Include in its technical assistance and monitoring reviews LEAs' adherence to written
      procedures related to allocating IDEA, Part B funds to charter schools.

      We agree with the recommendation.
            See response to Recommendation 1.1.

             If you have any questions, contact Rosemary E. Johnson at (518) 486-4038.




                                                         s~~
                                                         Richard H. Cate



      cc: Rosemary E. Johnson




.   '. 

